Q

COURT OF APPEALS

rt!

STARK COUNTY, OHIO
FIFTH APPELLATE DISTRICT

a: ■

*o ISB
o

JUDGES:

STATE OF OHIO

-SO

* s^g

Hon. William B. Hoffman, P.J.
Hon. Patricia A. Delaney, J.
Hon. Craig R. Baldwin, J.

Plaintiff - Appellee

■T"

Pd

-vsCase No. 2014CA00020

STEVEN P. BUBENCHIK, JR.
Defendant - Appellant

OPINION

Appeal from the Stark County Court
of Common Pleas, Case No.
2013CR1293

CHARACTER OF PROCEEDING:

Hccdh

Affirmed

JUDGMENT:

DATE OF JUDGMENT:

APPEARANCES:
.:

For Plaintiff-Appellee

DEREK LOWRY
Crawford, Lowry & Associates
116 Cleveland Ave., NW
Suite 800
Canton, OH 44702

JOHN D. FERRERO
Prosecuting Attorney
By: KATHLEEN O. TATARSKY
Assistant Prosecuting Attorney
110 Central Plaza, South, Suite 510
■Can tonr0H-4-4Y02—
.l;

:UE COPY TESTE:
Kmc [RREINBQ}0-^^
• •(

Oate •

pp%!fj m

For Defendant-Appellant

if;

oo

Stark County, Case No. 2014CA00020

Baldwin, J.
{fl1}

Appellant Steven P. Bubenchik, Jr. appeals a judgment of the Stark

County Common Pleas Court convicting him of attempted murder (R.C. 2903.02(A))
with a repeat violent offender specification and a firearm specification, two counts of
felonious assault (R.C. 2903.11(A)(2)) with repeat violent offender specifications and
firearm specifications, and having weapons under disability (R.C. 2923.13(A)(2)).
Appellee is the State of Ohio.

STATEMENT OF FACTS AND CASE
flT2}

During the evening of August 8, 2013, the Massillon Police Department

received a call from appellant’s wife, who was not living with him at the time. She told
police that she received a ioice mail messagl from appellant, stating that he would
see
her in the next lifetime. Massillon police officers Rogers, Alexander and Riccio went to
appellant’s home for a "welfare check.” They knocked on doors, shined lights in the
windows, and attempted to make contact with anyone who might be inside. Although
two vehicles were in the driveway, officers saw no lights on in the home and no
movement inside. The officers left.
Appellant’s wife called the police department again, expressing concern
that appellant had harmed himself. Sgt. Kenneth Smith asked dispatch to try to find a
family member, and dispatch reached appellant’s parents.

Officers Smith, Rogers,

Riccio and Alexander went back to appellant’s home with appellants parents.

Sgt.

Smith learned that appellant had been questioned earlier that day by Det. Bobby
Grizzard, who investigates child sexual abuse cases.

Stark County, Case No. 2014CA00020
fl|4}

3

The officers and appellant's parents walked around the house, knocked on

the door, shined lights in the windows, and called out to whoever might be inside. No
one inside responded, and after about ten minutes, appellant’s parents asked police to
leave, believing appellant might come out if the police were not present. The officers
left, parked their cruisers several blocks away, and waited.
fl|5}

After waiting ten minutes, the officers returned and met appellant’s parents

in the driveway. The parents were unable to make contact with appellant and wanted
police to enter the home.
{fi6}
screen

The officers found an open window on the front porch and pushed up the

Officer Riccio entered the residence through the window and began moving to

the front door to unlock it for the other officers. He announced himself as a Massillon
Police Officer when he entered through the window, and Sgt. Smith also yelled, “We’re
here to check on your welfare, we want to make sure you’re okay."

m

After Officer Riccio entered through the window, the officers on the porch

heard a gunshot from inside. Riccio came back outside through the window and the
officers scattered, seeking cover. A man ran out the front door and was taken to the
ground and handcuffed. The man was later identified as appellant’s brother.
fl}8}

Officers took cover behind their cruisers. Sgt. Smith saw appellant leaning

out a window with his firearm, yelling, “I’m going to kill you mother fuckers." Appellant
began shooting at the officers from the window. The officers did not return fire, fearing
someone else was inside,

A SWAT team was called and negotiations began with

appellant. After about three hours, appellant put down his pistol, exited the home and
.surj:ender-ed-to_p.oJice..

4

Stark County, Case No. 2014CA00020
{1J9}

Appellant was charged with three counts of attempted murder and three

counts of felonious assault, all with repeat violent offender specifications and firearm
specifications, and having weapons under disability.

He filed a motion to suppress

which was overruled by the court. The case proceeded to jury trial. The jury found him
not guilty of attempted murder as to Officer Riccio and Sgt. Smith, guilty of attempted
murder as to Officer McConnell, guilty of felonious assault as to all three officers, and
guilty of having weapons under disability.

The court merged the felonious assault

conviction with the attempted murder conviction as to Officer McConnell. Appellant was
sentenced to 11 years incarceration for attempted murder, 11 years incarceration for
each felonious assault, 36 months incarceration for having weapons under disability to
run concurrently, 9 years incarceration on the three firearm specifications and two years
incarceration on each repeat violent offender specification, for a total sentence of 48
years.
{1110} Appellant assigns a single error on appeal:

{1111} “THE TRIAL COURT’S DENIAL OF THE DEFENDANT-APPELLANT’S
MOTION TO SUPPRESS WAS AN ERROR OF LAW.’’
{1|12} Appellant argues that the court erred in overruling his motion to suppress.
He argues that appellant’s wife’s call to the police did not constitute exigent
circumstances justifying a warrantless entry into the home, and that his acts of shooting
.j

at the officers did not constitute a new criminal act.
{1|13} A warrantless police entry into a private residence is not unlawful if made
upon exigent circumstances, a “specifically established and well-delineated exceptio[n]
1 Although the State argued in the trial court that the exclusionary rule did not apply because.appellant s—
actions constituted a new criminal act, the trial court did not address this argument and instead found the
warrantless entry justified by exigent circumstances.

5

Stark County, Case No. 2014CA00020

to the search warrant requirement. State v. Applegate, 68-Ohio St.3d 348, 349-50, 626
N.E.2d 942, 944 (1994), citing Katz v. United States, 389 U.S. 347, 357, 88 S.Ct. 507,
514, 19 L.Ed.2d 576, 585 (1967). “The need to protect or preserve life or avoid serious
injury is justification for what would be otherwise illegal absent an exigency or
emergency.” Mincey v. Arizona, 437 U.S. 385, 392-393, 98 S.Ct. 2408, 2413, 57
L.Ed.2d 290, 300 (1978).
fl[14} The emergency aid exception does not require probable cause, but the
officers must have reasonable grounds to believe there is an immediate need to act in
order to protect lives or property, and there must be some reasonable basis for
associating an emergency with the location.

State v. Gooden, 9th Dist. Summit No.

23764, 2008-0hio-178, H10.
fl|15} In State v. Bethel, 5th Dist. Tuscarawas No. 10-AP-35, 2011-0hio-3020, a
911 call was placed by Community Mental Health, reporting that the defendant was
talking about weapons and shooting someone. Police responded to a dispatched call
that the defendant had guns in the house and had threatened to commit suicide or hurt
others. When officers arrived, they saw the defendant exit the home, and they secured
him. However, they entered the home to determine if there were other people in the
residence. Once inside, they observed drugs and drug paraphernalia, The trial court
found that exigent circumstances did not support the entry and search of the home
This Court reversed, finding that the entry into the home was necessary to protect
others possibly in the residence was reasonably related to those circumstances, and
was necessary to verify the defendant’s reports to Community Mental Health.

m

Id. at

Stark County, Case No. 2014CA00020

6

{^16} In the instant case, police received a call from appellant’s wife reporting
that appellant left her a voice message saying he would see her in the next lifetime.
Although two vehicles were in the driveway, officers who responded to the initial report
were unable to get a response from inside the home.
{If 17} Appellant’s wife called a second time, asking police to go to appellant’s
house again. Appellant’s parents accompanied police. There were still two vehicles in
the driveway.

Police and appellant’s parents were unable to get a response from

anyone inside the house, even though they made enough noise that neighbors began
coming outside to see what was happening. Police left, and appellants parents were
unable to get appellant to answer the door in the absence of a police presence at the
scene.

Sgt. Smith knew that appellant had been questioned earlier in the day by

Massillon Police Detective Bobby Grizzard who, according to Sgt. Smith, generally
handles serious charges involving child sexual abuse. According to Smith’s testimony
at the suppression hearing, when police returned and met with appellants parents,
Smith believed “it was starting to dawn on them” that appellant might have harmed
himself. Tr. 19.

He then asked the parents if they wanted police to try to get inside.

He told them he’d “hate to leave the scene if this guy did something to himself and he’s
in there and he still could be saved.” Tr. 19.
{1J18} Based on the evidence presented at the suppression hearing, the facts
known to the police at the time Officer Riccio entered the home gave them reasonable
grounds to believe that entry into the home was necessary to insure that appellant had
not attempted to harm himself. The trial court did not err in finding the warrantless entry
-tQ-be-justified-based-on-the-exigent-Cir-Cums.tan.c.e.s_exce.ptio.nJ----- :------------------------ _—

7

Stark County, Case No. 2014CA00020

{^19} Because we find the trial court did not err in overruling the motion to
suppress on the basis of exigent circumstances, we need not reach the issue of
whether appellant’s actions in shooting at the police officers constituted a separate act.
{^20} The assignment of error is overruled.

The judgment of the Stark County

Common Pleas Court is affirmed. Costs are assessed to appellant.
By: Baldwin, J.
Hoffman, P.J. and
Delaney, J. concur.

HONrCRAIG R. BALDWIN

HON. WILLIAM B'. HOFFf

—-

HON. PATRICIA A. DELANEY

CRB/rad

Case: 5:17-cv-01890-SO Doc#: 17-1 Filed: 03/07/18 334 of 435. PaaelD#:421

\
COURT OF APPEALS

tOfT

STATE OF OHIO
Plaintiff - Appellee
j
JUDGMENT ENTRY

-vsSTEVEN P. BUBENCHIK, JR.
|

Case No. 2014CA00020

Defendant-Appellant

Appellant, Steven P. Bubenchik, Jr., filed

a pro se application for reopening

pursuant to App. R. 26(B). Appellant is attempting to re-open the appellate judgment
that was rendered by this Court on November 10, 2014, in State v. Bubenchik, 5th Dist.
Stark No. 2014CA00020, 2014-0hio-5056, which affirmed
County Common Pleas Court convicting appellant

a judgment of the Stark

of attempted murder (R.C.

2903.02(A)) with a repeat violent offender specification and a firearm

specification, two
counts of felonious assault (R.C. 2903.11(A)(2)) with repeat violent offender
specifications and firearm specifications, and having weapons under disability (R.C.
2923.13(A)(2)).
App.R. 26(B) states that a defendant in a criminal case may apply for reopening
of the appeal from the judgment of conviction

and sentence, based on a claim of

ineffective assistance of appellate counsel. See also, State v. Mumahan, 63 Ohio St. 3d
60, 584 N.E.2d 1204 (1992).

3
By
Data

6*

Case: 5:17-cv-01890-SO Doc#: 17-1 Filed: 03/07/18 335 of 435. PagelD#:422

!

In State v. Reed, 74 Ohio St.3d 534, 535, 660 N.E.2d 456,
Supreme Court held that the two prong analysis found in Strickland v.

458 (1996), the
Washington, 466

U.S. 668,104 S.Ct. 2052, 80 L.Ed.2d 674 (1984), is the appropriate standard to

assess

a defense request for reopening.
In Strickland v. Washington, the United States Supreme Court held that in

order
to establish a claim for ineffective assistance of counsel the appellant must show (1)
that counsel’s performance was deficient, that counsel made

errors so serious that

counsel was not functioning as the "counsel11 guaranteed defendant by the Sixth
Amendment and, (2) that the deficient performance prejudiced the defense by showing
that counsel's errors were so serious as to deprive defendant of a fair trial,

a trial whose

result is reliable. Id. at paragraph six of syllabus.
Appellant first argues that the trial court abused its discretion

in denying his

motion to suppress. This argument was raised and considered by this Court on direct
appeal.
Appellant next argues that his conviction is void ab ignitio due

to police and

prosecutorial misconduct. He specifically argues that he did not shoot at the police
vehicle, and that the police officer perhaps shot at the vehicle himself before
photographing the car. He argues that his conviction is supported by the officers’
testimony.

The record does not support appellant’s claims,

false

and counsel was not

ineffective for failing to raise these arguments on direct appeal.
Appellant argues that his trial counsel put forth no effort in preparing for trial

, and
held back evidence that would prove that appellant was truthful in his testimony. He
argues that counsel had appellant incriminate himself when there was no evidence of a

■i.

Case: 5:17-cv-01890-SO Doc #: 17-1 Filed: 03/07/18 336 of 435. PagelD #: 423

crime. The record does not demonstrate this claim of ineffective assistance of trial
counsel, and appellate counsel was therefore not ineffective for failing to raise this
argument on direct appeal.
Appellant’s application for reopening is denied. Costs are asses:

appellant.

I
HO!

L

y

ig R. Baldwin
t

HON. WILLIAM B. HOFl

HON. PATRICIA A. DELANEY

~

COURT OF APPEALS
STARK COUNTY, OHIO
FIFTH APPELLATE DISTRICT

STATE OF OHIO

-vs-

JUDGES:
Hon. Sheila G. Farmer P J
Hon. W. Scott Gwin, J.’
Hon. John W. Wise, J.

STEVEN P. BUBENCHIK, JR.

Case No. 2016 CA 00086

Plaintiff-Appellee

Defendant-Appellant

CHARACTER OF PROCEEDING:

JUDGMENT:

DATE OF JUDGMENT ENTRY:

OPINION

Criminal Appeal from the Court of Com
mon
Pleas, Case No. 2013 CR 01293
Affirmed

October 11, 2016

APPEARANCES:
For Plaintiff-Appellee
JOHN D. FERRERO
PROSECUTING ATTORNEY
RENEE M. WATSON
ASSISTANT PROSECUTOR
110 Central Plaza South, Suite 510
Canton, Ohio 44702-1413

For Defendant-Appellant
STEVEN P. BUBENCHIK JR.
MANSFIELD CORR. INSTITUTION
Post Office Box 788
Mansfield, Ohio 44901

Aff ,C-

Stark County, Case No. 2016 CA 00086

2

Wise, J.
{111}

Appellant Steven P. Bubenchik, Jr. appeals from the decision of the Court

of Common Pleas, Stark County, which denied his petition for post-conviction relief and
his two ancillary motions, pertaining to his 2013 convictions for attempted murder,,
felonious assault, and other offenses and/or specifications. Appellee is the State of Ohio.
The relevant facts leading to this appeal are as. follows.
{112}

On the evening of August 8, 2013, officers from the Massillon Police

Department went to appellant’s residence to conduct a check bn his welfare, having been
informed by appellant’s estranged wife that she had received a potentially suicidal voice
mail message from him about seeing her in the “next lifetime.” Officers Rogers, Alexander
and Riccio responded to the Geiger Avenue SW address, but they left after seeing no
lights on and no movement inside. Later that evening, obtaining the assistance of
appellant’s parents, the officers returned, with Sergeant Smith in charge. Ultimately, the
parents indicated that they wanted the officers to enter appellant’s house.
{113}

As the officers commenced their entry procedures, a gunshot sounded from

inside. Officer Riccio came back outside, and all the officers scattered for cover. A man,
later identified as appellant's brother, ran out the front door and was taken to the ground
and handcuffed. In the meantime, appellant leaned out a window with a firearm, yelling
that he was “going to kill you motherfuckers.” Appellant then began shooting at the officers
from the window. The officers did not return fire, fearing someone else was inside. A
SWAT team was called, and after about three hours of negotiations, appellant put down
his pistol and surrendered.

Stark County, Case No. 2016 CA 00086
flW

3

Appellant was subsequently charged with three counts of attempted murder

and three cpunts of felonious assault, all with repsat violent offender specifications and
firearm specifications, and one count of having weapons under a disability.1 Prior to trial,
appellant filed a motion to suppress, which was overruled by the trial court.
{1f5}

The case proceeded to a jury trial commencing on December 10,2013. The

jury subsequently found appellant not guilty of attempted murder as to Officer Riccio and
Sergeant Smith, guilty of attempted murder as to Officer McConnell (another officer who
had reported to the scene), guilty of felonious assault as to all three officers, and guilty of
having weapons under a disability. The trial court merged the felonious assault conviction
with the attempted murder conviction as to Officer McConnell. Appellant was sentenced
to eleven years in prison for attempted murder, eleven years for each felonious assault,
thirty-six months for having weapons under a disability (to run concurrently), nine years
in prison on the three firearm specifications and two years in prison on each repeat violent
offender specification, for a total sentence of forty-eight years.
{116}

Appellant then filed a direct appeal to this Court, challenging as his sole

assigned error the trial court’s decision to overrule his motion to suppress. On November
14, 2014, we affirmed appellant’s convictions. See State v. Bubenchik, 5th Dist. Stark No.
2014CA00020, 2014-0hio-5056. The Ohio Supreme Court thereafter declined to accept
the case for further appeal.
{117}

On December 8, 2014, appellant filed in the trial court a pro se petition for

post-conviction relief, as well as a request for appointed counsel and a ballistics expert.

1 Two additional counts reiated to events from a different time frame were on the
indictment, but these were handled separately via a plea

Stark County, Case No, 2016 CA 00086

4

On August 13,2015, appellant filed a motion to amend his prior petition. In both instances,
appellant asserted ineffective assistance of trial counsel. On January 29, 2016, the State
filed a response to the petition, as well as a motion to dismiss and a motion for summary
judgment.2 Appellant filed a reply on March 1, 2016.
{118}

On April 5, 2016, the trial court issued a judgment entry denying appellant’s

petition and corresponding motions, essentially finding that he had failed to support his
post-conviction claims and that his arguments were additionally barred by the doctrine of
res judicata.
(1f9)

On April 25, 2016, appellant filed a notice of appeal. He herein raises the

following sole Assignment of Error:
{1110} “I.

THE TRIAL COURT ABUSED IT’S [SIC] DISCRETION IN NOT

HOLDING AN EVIDENTARY [SIC] HEARING.”

{H11} In his sole Assignment of Error, appellant contends the trial court erred in
not granting him an evidentiary hearing on his PCR petition and amended petition. We
disagree.
{1112} A defendant is entitled to post-conviction relief under R.C. 2953.21 only
upon a showing of a violation of constitutional dimension that occurred at the time the
defendant was tried and convicted. State v. Powell (1993), 90 Ohio App.3d 260, 264, 629
N.E.2d 13, 16. A petition for post-conviction relief does not provide a petitioner a second
opportunity to litigate his or her conviction, nor is the petitioner automatically entitled to
an evidentiary hearing on the petition. State v. Wilhelm, 5th Dist. Knox No. 05-CA-31

2 In said response, the State did not contest the timeliness of appellant’s PCR petition(s).

Stark County, Case No. 2016 CA 00086

5

2006-0hio-2450, H 10, citing State v. Jackson (1980), 64 Ohio St.2d 107, 110, 413
N.E.2d 819. In reviewing a trial court's denial of an appellant's petition for post-conviction
relief, absent a showing of abuse of discretion, we will not overrule the trial court's finding
if it is supported by competent and credible evidence. State v. Delgado, 8th Disf.
Cuyahoga No. 72288, 1998 WL 241988, citing State v. Mitchell (1988), 53 Ohio App.3d
117, 559 N.E.2d 1370. When a defendant files a post-conviction petition pursuant to R.C.
2953.21, the trial court must grant an evidentiary hearing unless it determines that “the
files and records of the case show, the petitioner is not entitled to relief.” See R.C.
2953.21(E). We apply an abuse of discretion standard when reviewing a trial court's
decision to deny a post-conviction petition without a hearing. State v. Holland, 5th Dist,
Licking No. 12-CA-56, 2013-0hio-905, If 17. An abuse of discretion connotes more than
an error of law or judgment, it implies the court's attitude is unreasonable, arbitrary or
unconscionable. Blakemore v. Blakemore (1983), 5 Ohio St.3d 217, 219.
{1113} The test for ineffective assistance claims is set forth in Strickland v.
Washington (1984), 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed:2d 674. See, also State v.
Bradley (1989), 42 Ohio St.3d 136, 538 N.E.2d 373. There is essentially a two-pronged
analysis in reviewing-a claim for ineffective assistance of counsel. First, the trial court
must determine whether counsel's assistance was ineffective; i.e., whether counsel's
performance fell below an objective standard of reasonable representation and was
violative of any of his or her essential duties to the client. If the court finds ineffective
assistance of counsel, it must then determine whether or not the defense was actually
prejudiced by counsel's ineffectiveness such that the reliability of the outcome of the trial

Stark County, Case No. 2016 CA 00086
is suspect.. This requires a showing that there iis a
reasonable probability that but for
counsel's unprofessional error, the outcome of the trial woulo have been different. Id
{K14> Iri the case subjudice, appellant first contends that information from the BCI
investigation reports, certain photographs and/or diagrams (allegedly “

withheld” by his
trial counsel), and testimony from one of the police officers during the prel
iminary hearing
would support his ineffective assistance claims. He also makes
a cryptic assertion that
testimony appellant gave during trial is consistent with the B.C.L Report and was not
presented to the Jurors.” Appellant’s Brief at 4.
{U15} However, under the doctrine of res judicata, afinal judgment of conviction
bars a defendant from raising arid litigating in any proceeding, except an appeal from that
judgment, any defense or any claimed lack of due process that the defendant

raised or
could have raised at the trial which resulted in that judgment of conviction or on an appeal

from that judgment. State v. Callahan, 7th Dist.
5864,

Mahoning No. 12 MA 173, 2013-Ohio-

9, quoting State v. Perry, 10 Ohio St.2d 175, 180, 226 N.E.2d

104 (1967).

Conversely, issues properly raised in a
post-conviction petition are those that could not
have been raised on direct appeal because the evidence supporting the issue is outside
the record. State v. Snelling, 5th Dist. Richland No. 14CA19
other words, “[ujnder Ohio law, where a defendant,

2014-Ohio-4614,

30. In

‘represented by new counsel upon

direct appeal, fails to raise therein the issue of competent trial counsel and said i
issue
could fairly have been determined without resort to evidence dehors the
record, res
judicata is a proper basis for dismissing defendant's petition for postconvict
ion relief. f
State v. Dickerson, 10* Dist. Franklin No. 13AP-249,2013-Ohio-4345,1[11
, quoting State
ij

Stark County, Case No. 2016 CA 00086

7

v. Cole, 2 Ohio St.3d 112, 443 N.E.2d 169 (1982), syllabus, modifying State v. Hester, 45
Ohio St.2d 71, 341 N.E.2d 304 (1976).
{1116} In its response brief, the State directs us to the discovery receipt document
from the trial court file, dated October 21, 2013, which indicates the crime scene
photographs and/or diagrams were provided by the State in pre-trial discovery.
Furthermore, a large number of such photographs and a “scene diagram” were submitted
to the trial court as part of the State’s exhibits, and as such would not be dehors the
record. See Tr. at 722-726. Finally, appellant does not reveal why the referenced
preliminary hearing or trial testimony should be considered as outside of the trial court
record. We therefore find no abuse iof discretion in the trial court’s application of thfc
doctrine of res judicata to deny the aforesaid claims without a hearing.
fl|17> In regard to the aforesaid BCI reports, the record would again reflect that
these documents were provided in discovery, although we do not presently ascertain that
they were referenced as part of the trial exhibits. Appellant herein essentially asserts that
said investigative reports reveal several discrepancies in the State’s case as to where
certain bullet fragments were found and which officers and police vehicles were targeted.
However, assuming arguendo this information is indeed dehors the record and not
blocked by res judicata, appellant fails to persuade us that his defense was thereby
prejudiced on this point. Strickland, supra. It has been' aptly stated that “the evidence
presented outside the record must meet some threshold standard of cogency; otherwise
it would be too easy to defeat the holding of Perry by simply attaching as exhibits evidence
which is only marginally significant and does not advance the petitioner's claim beyond

Stark County, Case No. 2G16 CA 00086

8

mere hypothesis and a desire for further discovery.” State v. Coleman, 1st Dist. Hamilton
No. C-900811, 1993 WL 74756.
{1118} Appellant secondly contends that his trial counsel was ineffective for
allegedly failing to interview various witnesses and/or police officers, procure a ballistics
expert, and adequately communicate with appellant. Assuming arguendo trial counsel did
not pursue sufficient pretrial investigation as alleged herein by appellant, a particular
decision by a trial attorney not to investigate an issue must be assessed for
reasonableness in light of all the circumstances, with the application of “a heavy measure
of deference to counsel's judgments.” See Kimmelman v. Morrison (1986), 477 U.S. 365,
384, 106 S.Ct. 2574. Furthermore, this Court has recognized that

u* * *

complaints of

uncalled witnesses are not favored, because the presentation of testimonial evidence is
a matter of trial strategy and because allegations of what a witness would have testified
are largely speculative.” State v. Phillips, 5th Dist. Stark No. 2010CA00338, 2011-Ohio6569, U 26, quoting Buckelew v. United States (5th Cir.1978), 575 F.2d 515, 521 (internal
quotation marks omitted).
{1119} We find appellant in this regard has chiefly relied on the self-serving
memorandum he presented with his petition and his present undeveloped suggestion that
the aforesaid evidence would have revealed discrepancies in his case. Appellant thus
fails to demonstrate in what manner he was prejudiced by trial counsel’s performance.
Upon review of the record and the post-conviction pleadings, we hold the trial court did
not abuse its discretion in denying appellant's petition and amended petition for post­
conviction relief without conducting an evidentiary hearing.

Stark County, Case No. 2016 CA 00086

9

{1J20} Appellant's sole Assignment of Error is therefore overruled.
{1121} For the foregoing reasons, the judgment of the Court of Common Pleas,
Stark County, Ohio, is hereby affirmed.

By: Wise, J.
Farmer, P. J., and
Gwin, J., concur.

ARMER

(J Ji

HON. W. SCOTT GWIN
JWW/d 0928

Case: 5:17-cv-0l890-SO 'Doc #: 40 Filed: 09/19/19'! of 4r'PagelD #: 1780

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION

STEVEN P. BUBENCHICK, JR., Pro Se,

)

Case No.: 5:17 CV 1890

)'
)
)

Petitioner
v.
WARDEN ED SHELTON,
Respondent

)

JUDGE SOLOMON OLIVER, JR.

)
)
)
)

ORDER

Currently pending before the court in the above-captioned case is Pro Se Petitioner Steven
Bubenchik’s Amended Petition for Writ of Habeas Corpus (ECF No. 31). Pursuant to Local
Rule 72.2, the matter was referred to Magistrate Judge James R. Kriepp II for a Report and
Recommendation (“R & R”). For the following reasons, the court adopts Judge Knepp’s R & R that
the Petition be denied in its entirety.
On September 8, 2017, Petitioner filed ai Petition for Writ of Habeas Corpus (ECF No. 1),
pursuant to 28 U.S.C. § 2254, challenging his conviction and sentence in state court on one count
of attempted murder with firearm and repeat violent offender specifications, three counts of
felonious assault with firearm and repeat violent offender specifications, and one count of having
weapons under a disability. (R & R at 3-4, ECF No. 36.) As a result of the conviction, Petitioner
was sentenced to an aggregate of forty-eight (48) years’ imprisonment. (Id. at 4.) Petitioner asserted
the following four grounds for relief and supporting facts in his Petition:
JGROUNDONE:

■TrialcQurt-sdenialQf-AppcUaflt-s-suppFession-hearing-was-aji-errorof law.

rT

Case: 5:17-cv-01890-SO Doc #: 40 Filed: '09/19/19- 3 of 4: -PagelD #: 1782
</

Amendment fights.
GROUND FOUR:

Appellate counsel ^violated1 Petitioner’s Sixth and Fourteenth
Amendment rights.

(Am. Pet. at 10-18, ECF No. 31.) Petitioner lays out supporting facts for each ground in the
Amended Petition and in an attached memorandum of law (ECF No. 31-1). Respondent filed an
Answer/Retum of Writ (ECF No. 32) on July 31,2018, and Petitioner filed a Reply/Travefse (ECF
No. 34) on September 5, 2018.
Judge Kr.'epp submitted his R&Ron July 12,2019, recommending that the court deny and
dismiss the Amended Petition in its entirety. The R & R finds that “Ground One is not cognizable
in a habeas proceeding”; “Ground Two is procedtirally defaulted’’^ “Ground Three is partially
procedurally defaulted, and partially meritless”; and “Ground Four fails on the merits.” (R & R at
26, ECF No..36.) After Petitioner sought additional time to file an objection (Petr’s Mot. Extension
of Time, ECF No. 3 7), the court granted an extension until August 20, 2019.
. On August 16,2019, Petitioner timely filed an Objection to Judge Knepp’s R & R. (Petr’s
Obj., ECF No. 39.) However, the Objection does not raise any new arguments, nor does it directly
address the factual findings and legal conclusions in Judge Knepp’s R.& R. Petitioner instead
reiterates the arguments he raised in his Petition and Reply/Traverse. (See ECF Nos. 31, 34.) An
objection that summarizes what has already been presented, or merely states a disagreement with
a magistrate’s conclusion, is not an objection. See Aldrich v. Bock, 327 F. Supp. 2d 743,747 (E.D.
Mich. 2004).
After a careful de novo review of Judge Knepp’s R & R, as well as Petitioner’s Objection
and all other relevant documents in the record, the court finds that Judge Knepp’s recommendations
are fully supported by the record and controlling case law. See Cowherd v. Million, 380F.3d 909,
—9-L2.(.6th-Cir.^004).PetitionerJiasnotestablished4hathisiederaljrights-weEe-violated^Accor4ingl-y5——
-3-

Case: 5:17-cv-01890-SO Doc#: 41 Filed: 09/19/19 lofl. PagelD#:1784

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION

STEVEN P. BUBENCHICK, JR, Pro Se,

)

Case No.: 5:17 CV 1890

Petitioner

)
)
)

v.

)

JUDGE SOLOMON OLIVER, JR.

)
)
)
)

JUDGMENT ENTRY

WARDEN ED SHELTON,
Respondent

The court, having dismissed Petitioner Steven P. Bubenchick’s (“Petitioner”) Petition for
Writ of Habeas Corpus, pursuant to 21 U.S.C. § 2254 (Pet, ECF No. 1), in a separate Order on this
same date, hereby enters judgment for Respondent Warden Ed Sheldon and against Petitioner. The
court certifies, pursuant to 28 U.S.C. § 1915(a)(3), that an appeal from this decision could not be
taken in good faith, and that there is no basis upon which to issue a certificate of appealability. 28
•

U.S.C. § 2253(c); Fed. R. App. P. 22(5).
IT IS SO ORDERED.

/s/SOLOMON OLIVER. JR_______
UNITED STATES DISTRICT JUDGE
September 19, 2019

No. 20-3438

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
STEVEN P. BUBENCHIK, JR.
Petitioner-Appell ant,
v.
DOUGLAS FENDER, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

Apr 15, 2021
DEBORAH S. HUNT, Clerk

'

ORDER

t

Before: THAPAR, Circuit Judge.

Steven P. BuBenchik, Jr., a pro se Ohio prisoner, appeals a district court’s judgment
denying his 28 U.S.C. § 2254 petition for a writ of habeas corpus. This court construes his notice
of appeal as an application for a certificate of appealability (“COA”). See Fed. R. App. P. 22(b).
He moves for appointed counsel and to proceed in forma pauperis (“IFP”) on appeal. See Fed. R.
App. P. 24(a)(5).
Upon receiving BuBenchik’s voice mail message that he would see her in the next lifetime,
his estranged wife twice called the police out of concern for his welfare. Police, in turn, twice
went to BuBenchik’s house, knocked on doors, and shined lights in the windows, but received no
response. When Officer Riccio entered through a window and announced that he was there to
check on BuBenchik’s welfare, a gunshot rang out, and Riccio fled the house. BuBenchik leaned
out of a window, yelled “I’m going to kill you m

f***s,” and continued shooting. Three hours

later, BuBenchik surrendered.
As relevant here, a grand jury indicted BuBenchik on three counts of attempted murder,
three counts of felonious assault, firearm and repeat violent offender specifications, and having
weapons while under a disability. BuBenchik moved to suppress evidence and statements made
to police.

The trial court held a hearing and denied the motion,, reasoning that exigent

No. 20-3438
-2-

circumstances justified the warrantless entry because the police had a reasonable belief that
BuBenchik was suicidal.
At trial, BuBenchik testified on his own behalf. The jury convicted him of one count of
attempted murder, three counts of felonious assault, and the weapons charge. The trial court found
him guilty of the specifications at a bench trial and sentenced him to a total of forty-eight years in
prison. The Ohio Court of Appeals affirmed his convictions and sentence. State v. BuBenchik,
No. 2014 CA00020, 2014 WL 6066188 (Ohio Ct. App. Nov. 10, 2014), perm. app. denied, 29
N.E.3d 1005 (Ohio 2015).
During the pendency of his direct appeal, BuBenchik simultaneously pursued two forms
of collateral relief. On December 8, 2014, he petitioned to vacate or set aside his conviction. The
trial court denied the petition, and the Ohio Court of Appeals affirmed the decision. State v.
BuBenchik, No. 2016 CA00086, 2016 WL 5930314 (Ohio Ct. App. Oct. 11, 2016), perm. app.
denied, 72 N.E.3d 658 (Ohio 2017). On February 9, 2015, BuBenchik moved to reopen his direct
appeal pursuant to Ohio Appellate Rule 26(B). The Ohio Court of Appeals denied his application,
and the Ohio Supreme Court declined to accept jurisdiction.

‘:

In his § 2254 petition, as amended, BuBenchik asserted that: (1) the trial court violated his
Fourth Amendment rights by denying his motion to suppress; (2) his Fourteenth Amendment rights
were violated by police and prosecutorial misconduct; (3) trial counsel rendered ineffective
assistance; and (4) appellate counsel rendered ineffective assistance by failing to raise the claims
of police and prosecutorial misconduct and ineffective assistance of trial counsel.
A magistrate judge recommended denying the first claim as non-cognizable on habeas
review and denying the remaining claims as procedurally defaulted, meritless, or both.
Over BuBenchik’s objections and upon de novo review, the district court adopted the
magistrate judge’s report and denied the § 2254 petition. The court declined to issue a COA.
An individual seeking a COA is required to make a substantial showing of the denial of a
federal constitutional right. See 28 U.S.C. § 2253(c)(2). “A petitioner satisfies this standard by
-demonst-r-ating-that—jur-ist-s-of—reason-i
constitutional claims or that jurists could conclude the issues presented are adequate to deserve

No. 20-3438
-3encouragementto proceed further.” Miller-El v. Cockrell, 537 U.S. 322,327 (2003). To determine
if this standard is satisfied, this court conducts “an overview of the claims” and “a general
assessment of their merits.” Id. at 336. In the § 2254 context, a district court cannot grant relief
from a merits adjudication of a constitutional claim unless the state court’s decision “was contrary
to, or involved an unreasonable application of, clearly established Federal law, as determined by
the Supreme Court of the United States” or “was based on an unreasonable determination of the
facts.” 28 U.S.C. § 2254(d)(l)-(2).
When the appeal concerns a district court’s procedural ruling, a CO A should issue if the
petitioner demonstrates “that jurists of reason would find it debatable whether the petition states a
valid claim of the denial of a constitutional right and that jurists of reason would find it debatable
whether the district court was correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473,
484 (2000). A prisoner must “demonstrate substantial underlying constitutional claims.” Id.
Jurists of reason would agree that BuBenchik’s claim regarding the denial of the motion to
suppress is not cognizable on habeas review. Federal habeas relief may not be granted when a
petitioner had a full and fair opportunity to litigate a Fourth Amendment claim in state court
proceedings. See Stone v. Powell, 428 U.S. 465, 494 (1976). An ‘“opportunity for full and fair
consideration’ means an available avenue for the prisoner to present his claim to the state courts,
not an inquiry into the adequacy of the procedure actually used to resolve that particular claim.”
Good v. Berghuis, 729 F.3d 636, 639 (6th Cir. 2013). Despite BuBenchik’s assertions to the
contrary, he had an available avenue and used that avenue to present his Fourth Amendment claim
to the trial and appellate courts. BuBenchik had unsuccessfully pursued his claim before trial and
on direct appeal.
Jurists of reason would agree that BuBenchik procedurally defaulted his second claim, in
which he asserted that the police committed misconduct by falsely testifying that he shot at a police
vehicle when an officer might have done so, and that the prosecutor committed misconduct by
expressing doubt that this happened. State law required BuBenchik to raise the claim either on

to the extent that he relied on evidence outside the record. See State v. Milanovich, 325 N.E.2d

No. 20-3438
-4-

540, 543 (Ohio 1975); State v. Perry, 226 N.E.2d 104, 108 (Ohio 1967); see also State v. Jordan,
No. 109345, 2021 WL 926999, at *7 (Ohio Ct. App. Mar. 11, 2021). BuBenchik did neither. He
instead indirectly raised the issue in his Rule 26(B) application by arguing that appellate counsel
rendered ineffective assistance by failing to raise the claim on direct appeal. However, raising a
claim of ineffective assistance of appellate counsel in state court does not preserve the underlying
issue for federal habeas review. See Scott v. Houk, 760 F.3d 497, 505 (6th Cir. 2014); Davie v.
Mitchell, 547 F.3d 297, 312 (6th Cir. 2008).
Moreover, BuBenchik has failed to show cause and prejudice or actual innocence to excuse
his default. See Coleman v. Thompson, 501 U.S. 722, 754 (1991); Murray v. Carrier, All U.S.
478, 495-96 (1986). Although he argues that the default should be excused due to ineffective
assistance of trial and appellate counsel, counsel cannot be deemed ineffective for failing to raise
frivolous issues. See Gojfv. Bagley, 601 F.3d 445, 469 (6th Cir. 2010); Norris v. Schotten, 146
F.3d 314, 336 (6th Cir. 1998). The Ohio Court of Appeals found that police witnessed BuBenchik
shooting his gun at them, took cover behind their cmisers, and did not return fire. BuBenchik,
2014 WL 6066188, at * 1. BuBenchik’s supposition about a police officer shooting his own car is
speculative, and BuBenchik has not. demonstrated a reasonable probability that the result of his
criminal proceeding would have been different if trial or appellate counsel had advanced his
theory. See Strickland v. Washington, 466 U.S. 668, 687 (1984).
In his third claim, BuBenchik argued that trial counsel rendered ineffective assistance when
he did not provide or review with BuBenchik discovery such as photos, diagrams, and Ohio Bureau
of Criminal Investigation (“BCI”) reports; “denied Bubenchik [sic] [a] crime lab technician,
Joshua Barr from the BCI”; and failed to interview police officers or other witnesses. The
discovery and witnesses purportedly would have supported his theory of police misconduct by
showing discrepancies in the record.
On review of the denial of his post-conviction petition, the Ohio Court of Appeals
concluded that the doctrine of res judicata barred the part of the claim regarding discovery because
-Thus,-the.
evidence was a matter of record, and BuBenchik could have raised his assertion on direct appeal.

No. 20-3438
-5BuBenchik, 2016 WL 5930314, at *3. The court concluded that counsel’s actions regarding
witnesses were a matter of trial strategy, and that BuBenchik had not demonstrated prejudice as to
any of counsel’s alleged deficiencies, whether or not review was barred by res judicata.
Jurists of reason would agree that BuBenchik procedurally defaulted the part of the claim
regarding counsel’s alleged failure to provide discovery or review it with him. The state court’s
application of res judicata was an adequate and independent state law ground that barred habeas
relief. See Hanna v. Ishee, 694 F.3d 596, 614 (6th Cir. 2012). And, as discussed above, ineffective
assistance of appellate counsel would not excuse the default due to the frivolity of his theory of
alleged police misconduct. Jurists of reason also would agree that the state court’s dismissal on
the merits of the remainder of the claim was not an unreasonable application of federal law.
BuBenchik did not overcome the presumption that counsel’s actions were sound trial strategy, and
he did not make a substantial showing of prejudice to his defense. See Strickland, 466 U.S. at,687,
690.
Finally, jurists of reason would agree that appellate counsel did not render ineffective
assistance by failing to raise the above claims of police and prosecutorial misconduct and
ineffective assistance of trial counsel. As previously noted, counsel cannot be deemed ineffective
for failing to raise frivolous issues. See Goff, 601 F.3d at 469.
Accordingly, the court DENIES BuBenchik’s COA application. The motions for IFP
status and for appointed counsel are DENIED as moot.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

No. 20-3438

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
STEVEN P. BUBENCHIK, JR.,
Petitioner-Appellant,
v.
DOUGLAS FENDER, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

Jun 03, 2021
DEBORAH S. HUNT, Clerk

ORDER

Before: ROGERS, LARSEN, and READLER, Circuit Judges.

Steven P. BuBenchik, Jr., a pro se Ohio prisoner, petitions this court to rehear its order of
April 15, 2021, denying his application for a certificate of appealability (“COA”). See Fed. R.
App. P. 22(b).
This court denied BuBenchik’s COA application because he did not make a substantial
showing of the denial of a federal constitutional right. See 28 U.S.C. § 2253(c)(2).
After careful consideration, we conclude that the court did not overlook or misapprehend
any point of law or fact when it denied BuBenchik’s COA application. See Fed. R. App.
P. 40(a)(2).
Accordingly, we DENY BuBenchik’s petition for rehearing.
ENTERED BY ORDER OF THE COURT

JrDeborah S. Hunt, Clerk

